                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                                 CLOSEOUT MEMORANDUM

     Case Number: A05-57
                                                                                       11               Page 1 of I



              A proactive review of proposals for plagiarism identified a proposal' that allegedly failed to list all
              current and pending support (C&PS). A web page2described a federally funded project by%ubject
              that was apparently not listed on his C&PS. A'closer look at the source document~indicatedthat the         ..
         . hnding in that document was quite similar to the first item listed on the subjectk CAPS. The source         :$




     :.  ce   documeht listed both the Federal agency support as well as the insqtutionk cost share portion. when ;- ' ;
            : the two support amo6nts are added together, it equals the support.hount listedin item one of the        :.
        - c, :Subjtct7sC&PS. Therefore, it appears that the subject did inclke all his.ciirrefit Sbp6ort on.hisI* .-        -   f




                                                                                 '61

              C&PS listing and there is no substance to the allegation.                           I (




I'                                                                                                                                  I   I
 NSF OIG Form 2 (1 1,102)
